DOE/IG-0479




         AUDIT
        REPORT

                             MANAGEMENT OF PATENT AND LICENSING
                               ACTIVITIES AT DEPARTMENT-OWNED
                             CONTRACTOR-OPERATED LABORATORIES




                                            AUGUST 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                        August 11, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Report on "Management of Patent and Licensing
                      Activities at Department-Owned Contractor-Operated Laboratories"


BACKGROUND

The Department of Energy (Department) maintains an extensive complex of laboratories to help
execute its statutory missions. The 24 laboratories, with a combined budget of over $7 billion,
conduct research in energy sciences and technology, high energy physics, global climate
change, genomics, superconducting materials, accelerator technologies, environmental sciences,
and super-computing in support of the Department's mission.

During the 1980s, a series of statutes was enacted to accelerate the transfer of Government-
funded technology to the private sector for development and commercialization. One such
statute, the 1989 National Competitiveness Technology Transfer Act (Technology Act) required
the Department to establish technology transfer as a mission at each of its contractor run
laboratories. In implementing this Technology Act requirement, the Department utilized the
patent waiver authority to allow all contractors operating the Department's laboratories to obtain
title to inventions created while conducting Department-sponsored research. Additionally,
Department laboratories have extensive authority to transfer technology by licensing inventions
to third parties. Under current contract arrangements, the inventor shares in all royalties
collected. During Fiscal Year 1999, the Department's laboratories were granted 505 patents and
received about $10 million through royalty payments from licensing activities.

The increasingly broad missions of the national laboratories, combined with their stepped-up
involvement in technology transfer, have had the effect of developing new and improving
existing technologies that will benefit the public. However, these changes have also led to
confusion regarding patent infringement and competition with the private sector. In fact,
responsible Department officials believe competition is inherent when transferring new
technologies from the Federal laboratory to the private sector. The new technologies
introduced may interfere with and possibly displace existing or emerging technologies already
in use. The Department believes that successful technology transfer programs can, and will
likely, lead to complaints from entities adversely affected.

One such complaint was the subject of an April 1999 report by the minority staff of the
Committee on Science of the U.S. House of Representatives. That report, titled Spinoff or
Ripoff?, discussed a patent dispute between the Lawrence Livermore National Laboratory
(Livermore) and Time Domain Corporation of Huntsville, Alabama. In essence, Time Domain
                                                2


alleged that Livermore competed unfairly and further damaged Time Domain by seeking to
develop and license technology that had been improperly patented by Livermore. Two
Members of Congress brought this to the attention of the Office of Inspector General.

Since publication of Spinoff or Ripoff?, the issues surrounding the Time Domain complaint
have been subjected to extensive review by several organizations. In June 1999, the
Department's Technology Transfer Working Group (Working Group) completed a
comprehensive review of technology transfer policies and procedures. The Working Group's
report included recommendations for simplifying complaint resolution and for minimizing the
likelihood that Department laboratories would compete with the private sector. In addition, the
University of California, which manages Livermore for the Department, commissioned a task
force of legal, technical, and business experts to evaluate the Time Domain allegations. The
task force completed its review in October 1999, reporting that while certain internal
procedures could be improved, Livermore's conduct in the Time Domain case was appropriate.
Finally, in November 1999, the U.S. Patent and Trademark Office upheld Livermore's patent
claims.

While the Office of Inspector General determined that the specifics of the Time Domain
complaint had received credible, comprehensive review, we were concerned about the potential
for additional complaints, in light of the Department's increased role in technology transfer and
the laboratories' expanding missions. Consequently, the objective of the audit was to determine
whether Departmental controls for patents and licensing were working as intended and provided
protection of stakeholder (taxpayer, inventor, and technology user) interests.


RESULTS OF AUDIT

While Departmental controls were operating as intended, we noted that the number of
complaints related to patents and licensing had increased in recent years. These complaints
appeared to result, in part, from confusion and misunderstanding relating to patent infringement
and competition with the private sector. These are serious concerns which, if not addressed on
an ongoing basis, can undermine the relationship between the Department's laboratory system
and the private sector.

In 1999, the Secretary established the Technology Transfer Working Group to serve as the lead
organization to oversee technology transfer policy and procedures, including those governing
patents and licensing. Since its inception, the Working Group has made a number of
improvements, including two initiatives designed to assist the private sector when disputes
related to the Department's technology transfer activities arise. First, each laboratory was to
assign an ombudsman to serve as a focal point for industry and the public and to resolve
complaints and disputes. Second, to facilitate resolution of complaints, the Working Group
encouraged increased use of collaborative alternative dispute resolution techniques.

Although these two initiatives are positive steps, additional factors appeared to be contributing
to the number and severity of complaints. Specifically, there appeared to be a
misunderstanding regarding the authority of Government laboratories to use the patents of
others in their research and development activities. Also, there was confusion regarding
Departmental contractors' competing with the private sector. To further strengthen the
                                                  3

Department's administration of patents and licensing activities, we recommended that the
Technology Transfer Working Group address these issues and propose administrative and/or
legislative actions to clarify Government laboratories' role in interacting with the private sector.


MANAGEMENT REACTION

The Chair of the Technology Transfer Working Group took exception to the Office of Inspector
General observation that the number of complaints had increased in recent years. He asserted
that compared to the large and increasing amount of technology transfer activity, complaints
were "relatively rare." The Chair also stated that the Department was currently implementing
corrective actions that would satisfy our recommendations.

The text of the Chair's statement is included as Appendix 1 of this report. Our response is on
pages 9 and 10.



Attachment

cc: Deputy Secretary
    Under Secretary
    Under Secretary, NNSA
Management Of Patent And Licensing Activities At Department-
Owned Contractor-Operated Laboratories

TABLE OF
CONTENTS


               Overview

               Introduction and Objective ................................................................... 1

               Conclusions and Observations .............................................................. 2


               Department And Contractor Controls

               Details of Finding ................................................................................. 4

               Recommendations and Comments ........................................................ 8


               Appendices

               1. Management Response ................................................................. 11

               2. Related Reports ............................................................................. 12

               3. Compliance with Patent and Licensing Controls .......................... 14

               4. Scope and Methodology ............................................................... 15
Overview

INTRODUCTION AND   The Department of Energy maintains an extensive complex of
OBJECTIVE          laboratories to help execute its statutory missions. These 24
                   laboratories conduct research in energy sciences and technology, high
                   energy physics, global climate change, genomics, superconducting
                   materials, accelerator technologies, environmental sciences, and
                   super-computing in support of the Department's mission. Over $7
                   billion was budgeted in Fiscal Year 1999 for the operation of these
                   laboratories.

                   During the 1980s, a series of statutes was enacted to accelerate the
                   transfer of Government funded technology to the private sector for
                   development and commercialization. One such statute, the 1989
                   National Competitiveness Technology Transfer Act (Technology Act)
                   required the Department to establish technology transfer as a mission
                   at each of its contractor run laboratories. In implementing this
                   Technology Act requirement, the Department utilized the patent
                   waiver authority to allow all contractors operating the Department's
                   laboratories to obtain title to inventions created while conducting
                   Department-sponsored research. Previously, as required by the Bayh-
                   Dole Act, only University and non-profit contractors operating the
                   Department's laboratories were allowed by contract to take title to
                   inventions created while conducting Department-sponsored research.
                   Prior to these acts, titles were owned by the Department. The thrust
                   of this effort has been to ensure that the potential benefits to society
                   of the Department's research and development efforts are transferred
                   to the commercial sector as quickly as possible.

                   Licensing inventions developed by Department-owned laboratories to
                   third parties is one method of transferring technology to the private
                   sector. Department laboratories have extensive authority to transfer
                   technology, provided that marketing any invention does not
                   jeopardize national security or violate specific contractual agreements
                   or public law. Under current contract arrangements, the inventor
                   shares in all royalties collected. Remaining royalties up to 5 percent
                   of the laboratory's budget go to the laboratory, after the inventor's
                   share and patent and licensing costs are deducted. Royalties in excess
                   of 5 percent of the laboratory's budget are split, with 25 percent going
                   to the laboratory and 75 percent to the Treasury. During Fiscal Year
                   1999, the Department's laboratories were granted 505 patents and
                   received about $10 million through royalty payments from licensing
                   activities.




Page 1                                                       Introduction and Objective
                             Patents Granted and Licensing Royalties
                                     for Fiscal Year 1999

                          Laboratory            Patents               Royalties
                                                                      (in millions)

                              Livermore              86                    $1.6
                              Sandia                108                      .5
                              Oak Ridge              57                     1.5
                              Brookhaven             19                     2.8
                              Argonne                34                      .9
                              Others                201                     2.5

                              Total                 505                   $9.8


                  The Office of the Assistant General Counsel for Technology Transfer
                  and Intellectual Property in Headquarters, and individual patent groups
                  in the field are responsible to represent the Department in patent and
                  licensing matters. Patent attorneys in these organizations provide
                  guidance and interpretation of Department policies and procedures to
                  the laboratories with regard to inventions. Additionally, in 1999, the
                  Secretary established the Technology Transfer Working Group
                  (Working Group) to serve as the lead organization to oversee and
                  resolve technology transfer policy, procedures, and issues, including
                  those governing patents and licensing.

                  The objective of this audit was to determine whether Department
                  controls for patents and licensing were working as intended and
                  provided protection of stakeholder (taxpayer, inventor, and technology
                  user) interests.


CONCLUSIONS AND   The controls established by the Department for patent and licensing
OBSERVATIONS      activities at Sandia, Lawrence Livermore, and Oak Ridge National
                  Laboratories were working as intended. Nonetheless, the Department
                  has recently experienced an increase in the number of allegations
                  against its national laboratories relating to patent and licensing
                  activities. All reasonable costs associated with responding to these
                  complaints are likely to be allowable under the contract and thus,
                  reimbursed by the Department. One complaint was the subject of an
                  April 1999 report by the minority staff of the Committee on Science of




Page 2                                                       Introduction and Objective/
                                                          Conclusions and Observations
         the U.S. House of Representatives. That report, titled Spinoff or Ripoff?1,
         discussed a patent dispute between the Lawrence Livermore National
         Laboratory (Livermore) and Time Domain Corporation of Huntsville,
         Alabama. In essence, Time Domain alleged that Livermore competed
         unfairly and further damaged Time Domain by seeking to develop and
         license technology that had been improperly patented by Livermore.

         Since publication of Spinoff or Ripoff?, the issues surrounding the Time
         Domain complaint have been subjected to extensive review by several
         organizations including the Department's Technology Transfer Working
         Group. In June 1999, the Working Group recommended two initiatives
         designed to assist the private sector when disputes related to the
         Department's technology transfer activities arise. First, the Working
         Group recommended that each laboratory assign an ombudsman to serve
         as a focal point for industry and the public and to resolve complaints and
         disputes. Second, to facilitate resolution of complaints, the Group
         encouraged the use of collaborative alternative dispute resolution
         techniques.

         Although these two initiatives are positive steps, two factors appear to be
         contributing to the number and severity of complaints. Specifically, there
         appears to be a misunderstanding regarding the authority of Government
         laboratories to use the patents of others in their research and development
         activities. Also, there is confusion regarding Departmental contractors'
         competing with the private sector. To further strengthen the Department's
         administration of patents and licensing activities, we recommend that the
         Technology Transfer Working Group address these issues and propose
         administrative and/or legislative actions to clarify Government
         laboratories' role in interacting with the private sector.

         The Office of Inspector General (OIG) and the General Accounting
         Office have issued several audit reports with recommendations to further
         strengthen the Department's administration of patents and licensing
         activities. These reports are briefly described in Appendix 2.



                                                               (Signed)
                                                        Office of Inspector General


          1
            The report’s complete title was Spinoff or Ripoff? Technology Transfer at Department of
          Energy National Laboratories: The Development & Commercialization of Micropower
          Impulse Radar at Lawrence Livermore National Laboratory-A Report by the Democratic
          Staff, Committee on Science, U.S. House of Representatives Washington, DC-April 9, 1999.


Page 3                                                     Conclusions and Observations
Management Of Patent And Licensing Activities
DEPARTMENT AND       A review of controls established by the Department for patent and
CONTRACTOR           licensing activities at Sandia, Lawrence Livermore, and Oak Ridge
CONTROLS             National Laboratories indicated that required control mechanisms were
                     in place and were working as intended. To test the Department's
                     management control process, we examined 55 active licenses at the
                     Sandia, Lawrence Livermore, and Oak Ridge National Laboratories. In
                     total, the OIG reviewed nine control processes, including reporting
                     procedures on invention disclosure, election to retain title, licensing,
                     and commercialization of inventions. The three contractors, with minor
                     exceptions, were conducting their patent and licensing activities in
                     accordance with applicable Departmental policy and contractual
                     requirements. Appendix 3 sets forth a detailed schedule of the controls
                     examined.

                     In addition, the Department and its contractors had established systems
                     to monitor and track patent and licensing activities. For example, all
                     three laboratories used Sandia-developed software to provide
                     comprehensive data needed to demonstrate that controls relating to
                     patent and licensing activities were in place and functioning as
                     intended. The Department and its contractors also collected and
                     evaluated patent and licensing information from disclosure through
                     licensing. When submitting patent applications, the Department has
                     generally followed the practice of relying on the Patent and Trademark
                     Office (PTO) for identifying related patents or publications. This
                     avoids duplication of search effort. The PTO spends approximately 50
                     percent of its patent application processing time for such searches.
                     From the records reviewed, we were able to determine that in 43 of 55
                     patent applications the three laboratories had disclosed to the PTO
                     related patents or publications. With regard to the other 12
                     applications, documentation in the files was not sufficient to make such
                     a determination and may have resulted from searches not turning up any
                     related patents or publications.

                     The three contractors also operated within funding limits established by
                     the Department. By contract, the Department reimburses its
                     laboratories for technology transfer activities. Reimbursements for all
                     such activities, including patent disposition and licensing, are limited to
                     either one-half or one percent of annual laboratory operating budget
                     levels. A review of contractor expenditures indicated that each of the
                     three national laboratories expended less than the authorized limitation.
                     The following table shows the dollar limitation and actual expenditures
                     for Fiscal Year 1999.




Page 4                                                                      Details of Finding
                                             Technology Transfer Costs
                                                 For Fiscal Year 1999
                                                                       Actual
                                                    Limit            Expenditures
                                           Percentage     Dollar

                  Sandia                       1.0%             $14M                 $7.1M
                  LLNL                         1.0%              10M                  4.1M
                  ORNL                         0.5%              3M                   1.5M


              While contractor controls were operating as intended, the number of
STAKEHOLDER
              complaints related to patents and licensing had increased in recent
CONCERNS
              years. These complaints, in part, appeared to result from confusion and
              misunderstanding relating to patent infringement and competition with
              the private sector. These are serious concerns which, if not addressed
              on an ongoing basis, can undermine the relationship between the
              Department's laboratory system and the private sector.

                                          Private Sector Complaints

              There have been a number of allegations that the laboratories have
              infringed on existing patents and did not properly respect the
              intellectual property rights of others. The Department and its
              contractors have disputed many of these claims, but the increasing
              number of complaints is an indication of the uneasy relationship, in
              some cases, between the private sector and Government laboratories.
              Examples2 of complaints that have been made include:

              •   A dispute involving Time Domain Corporation of Huntsville,
                  Alabama, and Livermore. Time Domain maintained that the key
                  Livermore Micropower Impulse Radar (MIR) patent was invalid
                  and should not have been granted because of a previous invention
                  by a Time Domain inventor.

              •   An allegation from Silicon Designs Inc. (SDI) that stated that
                  EG&G Mound employees had access to SDI's Small Business
                  Innovative Research (SBIR) data through Los Alamos National
                  Laboratory and that these same EG&G Mound employees made use
                  of SDI's SBIR data for "private gain."


              2
               The Office of General Counsel provided information to the OIG on case histories and
              attempts to resolve each of these complaints. The scope of the OIG review did not include
              validating this information or conducting audit steps to determine the validity of the
              underlying complaints.

Page 5                                                                             Details of Finding
         •   A complaint from Ultratech Stepper Corporation (UTS), a
             photolithography equipment manufacturer, alleged that a
             consortium of Department laboratories illegally disclosed its
             intellectual property to the public and that previous complaints have
             been ignored.

         •   A claim from Ventana that Livermore exclusively licensed a
             technology, involving a biotechnology technique allowing the use
             of inexpensive nucleic acid probes to study intact chromosomes for
             genetic abnormalities, that has widespread utility, in contravention
             of Department guidelines.

         •   An assertion from Biosource, of Worcester, Massachusetts, that
             Livermore filed patent applications that did not disclose Biosource's
             Intellectual Property, even though Livermore was aware of its
             existence.

         •   An allegation from Blasting Analysis International, Inc. (BAI), of
             Allentown, Pennsylvania, that Livermore has provided intellectual
             property, which has been exclusively licensed to BAI, to BAI's
             clients at no cost, causing BAI to lose customers.

         Management officials told us that the number of complaints relating to
         laboratory competition with the private sector has increased in the last
         year. Since Department laboratories have only been actively involved
         in technology transfer for about 10 years, the typical time period for
         new technology to reach the market place, the level of complaints is
         expected to increase further.

         The number and handling of stakeholder complaints by the Department
         has also been an issue raised by the legislative branch. In a
         December 6, 1999, letter 29 Members of Congress suggested that the
         Department require its contractor-operated laboratories to implement
         expedited dispute resolution procedures, and that these procedures be
         made available to complainants listed in the letter. The Department
         advised the Members that new dispute resolution processes were being
         implemented to help prevent complaints from escalating.

                                  Contributing Factors

         We identified at least two factors that contributed to the increase in
         complaints. First, there is a general lack of recognition or
         understanding that government laboratories can, in fact, infringe on
         existing patent rights. In addition, key statutes and policy governing the
         laboratory interaction with the private sector appear to be in conflict
         with one another.
Page 6                                                         Details of Finding
         Infringement

         Based on complaints received by the Department, it appeared the private
         sector believes that government laboratories may not infringe upon the
         patent rights of others. However, the Department's agreements with its
         laboratory contract operators suggest exactly the opposite. Specifically,
         Federal Acquisition Regulations, which have the force of law and are
         incorporated in each laboratory contract, provide that:

                The Government authorizes and consents to all use and
                manufacture of any invention described in and covered by a
                United States patent in the performance of this contract or any
                subcontract at any tier.

         In essence, Department contractors are authorized to use patents of others
         in their mission-related research and development activities. However,
         when infringement is alleged, as for all Federal agencies, the Federal
         Government is the responsible party. To put the frequency of such action
         into perspective, in the last 15 years the Department has paid only about
         $20,000, involving one case, for copyright infringement.

         As they perform mission-related research, laboratories may also create a
         new technology that has commercial use. While Department laboratories
         are allowed to license such technologies to outside parties, licensees are
         responsible for determining whether the licensed technology infringes on
         existing patents.

         Competition

         Another factor contributing to the number and severity of complaints has
         been the confusion regarding government laboratories' interaction and
         competition with the private sector. In this regard, two current policy
         directives appear to be in conflict with one another.

         Under the Atomic Energy Act of 1954, Government laboratories can
         conduct research for other agencies or other parties (commonly referred
         to as "work-for-others") when private sector facilities are inadequate to
         that purpose. Similarly, the Economy Act of 1932 provides for a
         determination that includes a statement that the "supplies or services
         cannot be obtained as conveniently or economically by contracting
         directly with a private source." Additionally, the Federal Acquisition
         Regulation provides that "Federally Funded Research and Development
         Centers" may not compete with the private sector in response to a Federal
         agency's request for proposals. This restriction is clearly specified in
         DOE Order 481.1, in which it is stated that, "the work requested will not
         place DOE and its contractor in direct competition with the domestic

Page 7                                                        Details of Finding
                  private sector." An objective of the order was to provide access for non-
                  Departmental entities to highly specialized or unique Departmental
                  facilities, services, or technical expertise where private sector facilities
                  are inadequate.

                  More recently, the Department's missions have been expanded by
                  public law to more fully use its extensive network of innovative
                  research laboratories. As a result of statutes such as the Technology
                  Act, Government laboratories have become more actively involved in
                  the development and commercialization of federally funded research.
                  Laboratories have been encouraged to facilitate collaboration among
                  Federal laboratories, state and local governments, universities, and the
                  private sector in order to assist the transfer of technology to the
                  marketplace. Relevant statutes and regulations make technology
                  transfer a mission of the laboratories, and, unlike the "work-for-others"
                  program, give no express proscription against competing with the
                  private sector. In fact, responsible Department officials believe
                  competition is inherent in the transferring of new technologies from the
                  Federal laboratory to the private sector. The new technologies
                  introduced may interfere with and possibly displace existing or
                  emerging technologies already in the private sector. The Department
                  believes that successful technology transfer programs can, and will
                  likely, lead to complaints from some entities adversely affected by the
                  displaced economic activities.

                  The broadening of the missions of the national laboratories and their
                  involvement in technology transfer have had the effect of developing
                  new and improving existing technologies that will benefit the private
                  sector. However, these changes have also led to confusion regarding
                  patent infringement and competition with the private sector.


RECOMMENDATIONS   To clarify the role of the Department in technology transfer and to
                  further address the increasing number of complaints from the private
                  sector, we recommend that the Chair of the Technology Transfer
                  Working Group, working with the General Counsel:

                  1. Determine what alternatives are available to resolve conflicting
                     statutes relating to competition with the private sector;

                  2. Work with Department elements, stakeholders and other interested
                     parties to determine which alternative(s) is most viable to address
                     this issue;



Page 8                                                                  Details of Finding/
                                                                        Recommendations
                                                                           and Comments
             3. Seek, if necessary, clarification or legislative resolution to the non-
                competition versus competition dichotomy; and

             4. Develop a methodology for communicating the Department's
                technology transfer procedures and practices to stakeholders.
                Particular care should be exercised in explaining issues related to
                patent infringement and competition.


MANAGEMENT   The Chair of the Technology Transfer Working Group agreed that
REACTION     patent and licensing internal controls were working as intended but took
             exception to the Office of Inspector General observation that the
             number of complaints had increased in recent years. The Chair stated
             that he was unaware of any statistics to corroborate this position. He
             asserted that compared to the large and increasing amount of
             technology transfer activity, complaints were "relatively rare." The
             Chair also stated that the Department was currently implementing
             corrective actions that would satisfy our recommendations.

             The text of the Chair's statement is included as Appendix 1.


AUDITOR      Our observation that complaints were increasing was based in part on
RESPONSE     numbers of such complaints made directly to the Office of Inspector
             General. Our decision to conduct the audit included consideration of
             these cases. We also noted that recent Department actions, including
             the establishment of an ombudsman function at each major laboratory
             to resolve technology transfer complaints and disputes, would be an
             unnecessary and inefficient use of resources if such incidents were
             "rare." Further, the Department's Assistant General Counsel for
             Technology Transfer and Intellectual Property advised us that the
             number of complaints relating to patent infringement or unfair
             competition had increased in the last year. He also expected complaints
             to increase in the future.

             The Chair cites corrective actions currently underway as the result of
             Technology Transfer Working Group reforms. While these actions are
             positive, they will not fully resolve the issues raised in our report.
             Management asserted that planned Working Group actions to
             "minimize the likelihood and perception of DOE laboratories
             competing with the private sector" met the intent of OIG
             recommendations 1 through 3. Essentially, these actions suggest


Page 9                                                            Recommendations
                                                                     and Comments
          utilizing existing policies and procedures to relieve the tension of a
          perceived conflict regarding laboratories competing with the private
          sector. They do not, however, provide for identifying alternatives to
          resolve the confusion regarding Department contractors competing with
          the private sector and, if necessary, elevating the issue to the Congress.

          Similarly, Working Group actions to "make partnership opportunities
          more accessible, easier to identify and quicker to initiate" do not fully
          meet the intent of OIG recommendation 4. Planned actions are directed
          toward improving the Cooperative Research and Development
          Agreement negotiation and approval process, developing a partnership
          package, and encouraging technology transfers using the power of the
          internet. The purpose of the OIG recommendation was to have the
          Department develop a methodology to communicate patent
          infringement and competition policy, practices, and issues to all
          stakeholders and not market a contracting process.

          The Department needs to develop a more complete action plan in order
          to fully comply with the recommendations in this report.




Page 10                                                       Recommendations
                                                                 and Comments
Appendix 1




Page 11      Management Response
Appendix 2

                REPORTS RELATED TO PATENT AND LICENSING ACTIVITIES


    Office of Inspector General Reports:

    •     Audit of Administration of Cooperative Research and Development Agreements at DOE
          National Laboratories, (DOE/IG-0373, May 19, 1995). Efforts to manage cooperative
          research and development agreements (CRADA) at three national laboratories (Lawrence
          Livermore, Los Alamos, and Oak Ridge) did not ensure that the following four DOE policy
          goals were met: (1) joint work statements; (2) statements of work; (3) CRADA milestones;
          and (4) valuation of partner contributions to a CRADA.

    •     Administration of Conflict of Interest Relating to Technology Transfer at Los Alamos
          National Laboratory, (DOE/IG-0319, January 12, 1993). Contrary to Department and
          laboratory policies, Los Alamos employees engaged in apparent conflicts of interest in their
          outside activities. Specifically, they appeared to make decisions as Los Alamos employees,
          use Government resources, and take privileged information to further their personal
          financial interest in their respective spin-off business.

    •     Technology Transfer Program at Martin Marietta Energy Systems, Inc., (ER-BC-93-01,
          November 25, 1992). Improvements in management controls were needed with respect to
          the adequacy and accuracy of official records on licensing agreements, royalty income, and
          periodic reporting to senior Energy Systems and Department officials on program activities
          and accomplishments.

    •     Recovery of Costs Related to Patent Rights Waived to Contractors or Inventors, (DOE/IG-
          0247, December 1987). The Department has not recovered all patent application and
          prosecution costs for waivers granted to management and operating contractors and
          employee-inventors as required by Department Order 2110.1.


    General Accounting Office Reports:

    •     Technology Transfer: Reporting Requirements for Federally Sponsored Inventions Need
          Revision, (GAO/RCED-99-242, August 12, 1999). GAO concluded that federal agencies
          and their contractors and grantees were not complying with provisions on the disclosure,
          reporting, retention, and licensing of federally sponsored inventions under the regulations
          implementing the Bayh-Dole Act and Executive Order 12591. In addition, GAO found that
          the databases for recording the Government’s royalty-free licenses are inaccurate,
          incomplete, and inconsistent and that some inventions are not being recorded at all. As a
          result, the Government was not always aware of federally sponsored inventions to which it
          has royalty-free rights.



Page 12                                                                                   Related Reports
    •     Technology Transfer: Number and Characteristics of Inventions Licensed by Six Federal
          Agencies, (GAO/RCED-99-173, June 18, 1999). GAO reported that the six agencies (NIH,
          Army, Navy, Air Force, DOE, and NASA) reported that they granted a total of 866 licenses
          and received $107.5 million in royalties during Fiscal Years 1996 through 1998. Most of
          the licenses were nonexclusive, most went to small businesses or individuals, and most went
          to domestic entities.

    •     Technology Transfers: Benefits of Cooperative R&D Agreements, (GAO/RCED-95-52,
          December 16, 1994). GAO identified that: (1) CRADAs offered opportunities for federal
          laboratories and industry to collaborate on research while meeting their missions; (2)
          technology from federal laboratories was transferred to the private sector, resulting in
          commercial products; (3) R&D programs were advanced; (4) sharing of resources aided
          federal laboratories and private companies in accomplishing the CRADA's objectives; and
          (5) some of the CRADAs demonstrated a potential for long-term improvements to our
          nation’s economy, health, and environment.


    Other Related Reports:

    •     Partnering for Success: A Review of Department Technology Transfer Policies and
          Procedures, (June 1999). The Technology Transfer Working Group found that (1)
          Department laboratories’ scientific excellence and engineering capabilities serve as the
          primary basis for technology partnerships; (2) Technology partnerships play an important
          role in Department research and U.S. economic activities; (3) The Department’s technology
          transfer programs have effectively facilitated the development of technology partnerships
          and the commercialization of publicly-funded research; and (4) CRADAs have been major
          drivers for technology transfer activities at the DOE.

    •     A Review of Lawrence Livermore National Laboratory’s Patent and Licensing Practices
          Related to Micropower Impulse Radar, (October 1, 1999). The task force found that the
          conduct of the Laboratory with respect to the patenting of MIR technology was appropriate,
          although some internal procedures could be improved. In addition, the Task Force found
          that Livermore did not engage in unfair competition with the private sector. LLNL did,
          however, initially make erroneous representations regarding Federal Communication
          Commission rules.




Page 13                                                                                  Related Reports
Appendix 3

                        COMPLIANCE WITH PATENT AND LICENSING CONTROLS
                              AT THE THREE LABORATORIES VISITED

                                                   LLNL                      SNL                            ORNL
                                                   (16 License Files         (23 License Files              (16 License Files
                                                   Reviewed)                 Reviewed)                      Reviewed)

    CONTROLS                                       YES1     NO               YES1      NO                   YES1       NO

    1. Appropriate Conflict of Interest              X                         X                               X
    statements are signed and included in the
    license files.
    (DEAR 970.5204-40)

    2. CO Approval when licensing to                 N/A2                                X3                   N/A2
    any affiliate of the contractor.
    (DEAR 970.5204-40)

    3. CO is notified of any work area               X                          X                              X
    where contractor intends to request
    or elect title.
    (DEAR 970.5204-40)

    4. Communication of all opportunities            X                          X                                  X
    for research partnering to small business.
    (DEAR 970.5204-40)

    5. Contractor maintains all records of           X                          X                                  X
    technology transfer activities.
    (DEAR 970.5204-40)

    6. Each invention is disclosed to Patent         X                          X                                  X
    Counsel within two months following
    notification to contractor.
    (DEAR Patent Rights Clause)

    7. Contractor notifies Patent Counsel            X                             X                               X
    in writing within two years whether or
    not contractor is planning to retain title
    to invention.
    (DEAR Patent Rights Clause)

    8. Contractor gives preference in such           X                          X                                  X
    a manner as to enhance the accrual of
    economic and technological benefits to
    the U.S. domestic economy.
    (DEAR 970.5204-40)

    9. Related patents or publications disclosed      X                         X4                                 X
    to the Patent and Trademark Office



    1
      An “X” in the column indicates that the appropriate control was in place a majority of the time.
    2
      N/A – did not find any examples from our licensing sample.
    3
      Both Departmental and laboratory officials were aware of the laboratory's plans to license to an affiliate company, but
    Departmental approval was not granted.
    4
      For 3 of 23 license files, patent records were not available, and for another 6 of 23 license files, it could not be determined
    whether any related patents or publications existed.




Page 14                                                                                                       Compliance with Patent
                                                                                                              and Licensing Controls
Appendix 4

SCOPE         The audit was conducted from November 1999 through March 2000 at
              Headquarters; Oak Ridge, Oakland, and Albuquerque Operations
              Offices; Lawrence Livermore, Sandia, and Oak Ridge National
              Laboratories; National Institutes of Health (NIH); Office of Scientific
              and Technical Information (OSTI); and the U.S. Patent and Trademark
              Office (PTO).

              In FY 2000, the Department established the National Nuclear Security
              Administration (NNSA). A number of the program offices, Operations
              Offices, and National Laboratories, which were included in this audit,
              are now part of the NNSA organization. References in the report to the
              Department of Energy and its activities include the NNSA.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed laws and regulations relating to patents and licensing;

              •   Held discussions with Department Headquarters, field, OSTI, and
                  contractor officials to determine their roles and responsibilities
                  related to patents and licensing;

              •   Held discussions with NIH to determine their patent and licensing
                  process;

              •   Held a discussion with PTO to determine their review and approval
                  process for patent applications;

              •   Tested various patent and licensing controls by selecting a
                  representative sample of licenses at the three laboratory sites;

              •   Analyzed the various management information systems to
                  determine if the Department and its contractors are monitoring and
                  tracking patent and licensing activities;

              •   Reviewed performance measures in accordance with the
                  requirements of the Government Performance and Results Act; and

              •   Examined cost data to determine if patent and licensing activities at
                  the laboratories were within the expenditure limitations and if
                  licensing and royalty income was dispersed appropriately.




Page 15                                                      Scope and Methodology
          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits. It included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our audit
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. We did not
          conduct a reliability assessment of computer-processed data because
          only a limited amount of such data was used during the audit. We
          discussed the results of the audit with the Chair, Technology Transfer
          Working Group and the Assistant General Counsel for Technology
          Transfer and Intellectual Property.




Page 16                                                 Scope and Methodology
                                                                               IG Report No. DOE/IG-0479

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
   The Office of Inspector General wants to make the distribution of its reports as customer
 friendly and cost effective as possible. Therefore, this report will be available electronically
                    through the Internet at the following alternative address:

             U.S. Department of Energy Office of Inspector General, Home Page

                                     http://www.ig.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.
